APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the First Circuit
(January 14, 2021) . . . . . . . . . . . . App. 1
Appendix B Opinion and Order in the United
States District Court for the District of
Puerto Rico
(October 28, 2019) . . . . . . . . . . . . App. 19
Appendix C Judgment in the United States
District Court for the District of
Puerto Rico
(October 29, 2019) . . . . . . . . . . . . App. 58
Appendix D 7 U.S.C.A. § 2156 Animal fighting
venture prohibition Effective:
February 7, 2014 to December 19,
2019 . . . . . . . . . . . . . . . . . . . . . . . App. 60
Appendix E 7 U.S.C.A. § 2156 Animal fighting
venture prohibition Effective:
December 20, 2019 . . . . . . . . . . . App. 66
Appendix F Agriculture Improvement Act of 2018,
PL 115-334, December 20, 2018 Sec.
12616 Extending Prohibition on
Animal Fighting to the Territories
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 71

App. 1

APPENDIX A
United States Court of Appeals
For the First Circuit
[Filed January 14, 2021]
No. 19-2236
_____________________________________________
NYDIA MERCEDES HERNÁNDEZ-GOTAY;
)
FAUSTINO ROSARIO-RODRÍGUEZ;
)
LUIS JOEL BARRETO-BARRETO;
)
CARLOS QUIÑONES-FIGUEROA;
)
LAURA GREEN,
)
)
Plaintiffs, Appellants,
)
)
CLUB GALLÍSTICO DE PUERTO RICO,
)
INC.,
)
)
Plaintiff,
)
)
and
)
)
ASOCIACIÓN CULTURAL Y DEPORTIVA
)
DEL GALLO FINO DE PELEA;
)
ÁNGEL MANUEL ORTIZ-DÍAZ;
)
JOHN J. OLIVARES-YACE;
)
ÁNGEL LUIS NARVÁEZ-RODRÍGUEZ;
)
JOSÉ MIGUEL CEDEÑO,
)
)
Plaintiffs,
)

App. 2
v.

)
)
UNITED STATES; UNITED STATES
)
DEPARTMENT OF AGRICULTURE;
)
SONNY PERDUE, Secretary of the
)
*
Department of Agriculture;
)
UNITED STATES DEPARTMENT
)
OF JUSTICE; JEFFREY A. ROSEN,
)
**
Acting Attorney General; DONALD J.
)
TRUMP, President,
)
)
Defendants, Appellees.
)
_____________________________________________)
No. 20-1084
_____________________________________________
ASOCIACIÓN CULTURAL Y DEPORTIVA
)
DEL GALLO FINO DE PELEA; ÁNGEL
)
MANUEL ORTIZ-DÍAZ; JOHN J.
)
OLIVARES-YACE; ÁNGEL LUIS
)
NARVÁEZ-RODRÍGUEZ; JOSÉ MIGUEL
)
CEDEÑO,
)
)
Plaintiffs, Appellants,
)

*

It appears that appellants have misspelled the Secretary’s name,
an error which is reflected in their briefing and on the docket.
The Clerk of Court shall amend the case caption to reflect the
correct spelling as used in this opinion.
**

Pursuant to Fed. R. App. P. 43(c)(2), Acting Attorney General
Jeffrey A. Rosen has been substituted for former Attorney
General William P. Barr as appellee.

App. 3
and

)
)
CLUB GALLÍSTICO DE PUERTO RICO,
)
INC.; NYDIA MERCEDES HERNÁNDEZ)
GOTAY; FAUSTINO ROSARIO)
RODRÍGUEZ; LUIS JOEL BARRETO)
BARRETO; CARLOS QUIÑONES)
FIGUEROA; LAURA GREEN,
)
)
Plaintiffs,
)
)
v.
)
)
UNITED STATES; UNITED STATES
)
DEPARTMENT OF AGRICULTURE;
)
SONNY PERDUE, Secretary of the
)
Department of Agriculture; UNITED
)
STATES DEPARTMENT OF JUSTICE;
)
JEFFREY A. ROSEN, Acting Attorney
)
General; DONALD J. TRUMP, President,
)
)
Defendants, Appellees.
)
_____________________________________________)
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF PUERTO RICO
[Hon. Gustavo A. Gelpí, Jr., U.S. District Judge]
Before
Howard, Chief Judge,
Lynch and Barron, Circuit Judges.

App. 4
Edwin Prado-Galarza and María A. Domínguez,
with whom Rafael Ojeda, Félix Román Carrasquillo,
and DMRA Law LLC were on briefs, for appellants.
Jeffrey Bossert Clark, Sr., with whom Ethan P.
Davis, Acting Assistant Attorney General, W. Stephen
Muldrow, United States Attorney, Abby C. Wright,
Attorney, Appellate Staff Civil Division, and John S.
Koppel, Attorney, Appellate Staff Civil Division were
on brief, for appellees.
Isaías Sánchez-Báez, Solicitor General of Puerto
Rico, and Carlos Lugo-Fiol on brief for the
Commonwealth of Puerto Rico, amicus curiae.
Jorge Martínez-Luciano, Emil Rodríguez-Escudero,
and M.L. & R.E. Law Firm on brief for the Puerto Rico
Association of Mayors, amicus curiae.
Ana Maria Hernandez Marti and Jessica L. Blome
on brief for Animal Wellness Action, Animal Wellness
Foundation, and the Center for a Humane Economy,
amici curiae.
January 14, 2021

App. 5
LYNCH, Circuit Judge. Plaintiffs in these
consolidated cases challenge the constitutionality of
Section 12616 of the Agriculture Improvement Act of
2018 (“Section 12616"), which bans the “sponsor[ship]”
and “exhibit[ion]” of cockfighting matches in Puerto
Rico. Pub. L. No. 115-334, § 12616, 132 Stat. 4490,
5015-16 (codified as amended at 7 U.S.C. § 2156).
Plaintiffs argue that the law exceeds Congress’s
Commerce and Territorial Clause powers and violates
their First Amendment and Due Process rights. We
affirm the district court’s decision and hold that Section
12616 is a valid exercise of Congress’s Commerce
Clause power and does not violate plaintiffs’ individual
rights.1
I. Background
On appeal from the grant of the government’s
motion for summary judgment, we read the facts in the
light most favorable to the plaintiffs. Stamps v. Town
of Framingham, 813 F.3d 27, 30 (1st Cir. 2016).
Cockfighting is “the sport of pitting gamecocks to
fight and the breeding and training of them for that
purpose.” Cockfighting, Britannica, https://www.
britannica.com/sports/cockfighting (last visited Dec. 17,
2020). The birds are bred to fight, are typically armed
with steel spurs, and fight until one of the birds dies or

1

We acknowledge and thank the amici curiae for their
submissions in this case. The Puerto Rico Association of Mayors
and the Commonwealth of Puerto Rico filed amicus curiae briefs
in support of appellants. Animal Wellness Action, Animal
Wellness Foundation, and the Center for a Humane Economy
submitted an amicus curiae brief in support of the government.

App. 6
is so injured that it can no longer fight. The Cockfight:
A Casebook, at vii (Alan Dundes ed., 1994). The fights
may end in a few minutes or go on as long as half an
hour. Id. Cockfighting was banned in Puerto Rico from
1898 to 1933, and has since been heavily regulated
under local Puerto Rico law. See P.R. Laws Ann. tit. 15
§§ 301 et seq.
In 1976, Congress amended the Animal Welfare Act
(“AWA”) to ban “animal fighting venture[s],” now
defined as “any event, in or affecting interstate or
foreign commerce, that involves a fight conducted . . .
between at least 2 animals for purposes of sport,
wagering, or entertainment.” 7 U.S.C. § 2156(f)(1);
Animal Welfare Act Amendments of 1976, Pub. L. No.
94-279, 90 Stat. 417, 421-22 (codified as amended at 7
U.S.C. § 2156). Those 1976 amendments contained an
exception allowing fights between “live birds” which
took place in any state where such fights were allowed
under state law. Animal Welfare Act Amendments of
1976 § 17. Puerto Rico is treated as a state under the
AWA. 7 U.S.C. § 2156(f)(3).
Congress has amended the animal fighting venture
prohibition several more times. As of 2018, before the
passage of the law at issue in this case, Congress had
banned attendance at all animal fighting ventures -including those in Puerto Rico and other jurisdictions
which still allowed cockfighting -- and the “[b]uying,
selling, delivering, possessing, training, or
transporting” of animals for the purpose of having the
animal participate in an animal fighting venture. 7
U.S.C. § 2156(a)(2), (b) (2018).

App. 7
In 2018, Congress passed Section 12616, which
removed the remaining exception that allowed
individuals to “[s]ponsor[] or exhibit[]” cocks in fights if
allowed under local law and if they lacked knowledge
that the cocks were moved in interstate commerce for
purposes of cockfighting. See Section 12616(a); 7 U.S.C.
§ 2156. It also closed an exception which had allowed
the use of interstate mail or services to advertise or
promote cockfights taking place in states which
permitted cockfighting. See Section 12616(b); 7 U.S.C.
§ 2156(c); Farm Security and Rural Investment Act of
2002, Pub. L. No. 107-171 § 10302, 116 Stat. 134, 492.
The sponsors of Section 12616 explained that
prohibiting cockfighting would “move to end the cruelty
of animal fighting,” “protect . . . communities from
associated crimes such as illegal drug dealing and
human violence,” and “safeguard against the spread of
diseases in poultry such as avian flu, since birds used
in cockfighting are particularly vulnerable.” Further,
“[a]fter a 2002 outbreak of exotic Newcastle disease in
the U.S., which cost taxpayers nearly $200 million and
the poultry industry many millions more, the USDA
implicated cockfighting as a culprit in spreading the
disease.”
II. Procedural History
On May 22 and August 1, 2019, plaintiffs filed two
suits to enjoin the enforcement of Section 12616.2 The
2

Plaintiffs were individuals and a corporation which own
cockfighting rings; individuals who breed, own, or invest in birds;
individuals who work for cockfighting arenas; an artisan who
crafts cockfighting-inspired art to be sold across state lines; and

App. 8
cases were consolidated by the district court on August
5, 2019.
Plaintiffs asserted a number of claims, including
that Section 12616 violated their First Amendment and
Due Process rights, and that Congress exceeded its
powers under the Commerce and Territorial Clauses.
Club Gallístico de P.R. Inc. v. United States, 414 F.
Supp. 3d 191, 201 (D.P.R. 2019). The plaintiffs lodged
both facial and as-applied pre-enforcement challenges
to the statute. Id. at 200. 3
The government asserted that plaintiffs did not
have standing to challenge the portions of the animal
fighting venture ban that were unchanged by Section
12616.4 Id. at 203.

a cultural association dedicated to “preserving the tradition,
culture, and economic benefits of cockfighting.”
3

Any facial challenge fails because the statute has “plainly
legitimate sweep.” Wash. State Grange v. Wash. State Republican
Party, 552 U.S. 442, 449 (2008). Therefore, we address only the
as-applied challenge.
4

On appeal, plaintiffs have dropped their claims that Section
12616 violates the anti-commandeering doctrine, that Section
12616 is a Bill of Attainder, that Section 12616 is inapplicable to
Puerto Rico under the Puerto Rico Federal Relations Act, that
Section 12616 violates the Takings Clause, and that Section 12616
violates their right to travel. Club Gallístico de P.R. Inc., 414 F.
Supp. 3d at 201. The district court rejected each of these claims.
Id. at 201-02, 208-09, 211-12.
The government did not renew its argument that plaintiffs
lacked standing.

App. 9
The parties filed cross-motions for summary
judgment. Id. at 201. The district court granted the
government’s motion and denied plaintiffs’ motion. Id.
at 202.
The district court first held that the plaintiffs had
“standing to challenge the constitutionality of
Congress’ extension of the animal fighting prohibition
to the Commonwealth of Puerto Rico and those
provisions that have existed prior to Section 12616's
approval.” Id. at 204.
The district court then concluded that Section 12616
was a valid exercise of Congress’s Commerce Clause
and Territorial Clause powers. Id. at 204-08. It next
held that cockfighting is not expressive conduct and so
is unprotected by the First Amendment, and that
Section 12616 did not violate plaintiffs’ right of free
association because it does not actually restrict
association. Id. at 209-10. The district court rejected
the substantive Due Process claim because there is no
fundamental right to cockfighting and there was a
rational basis for passing Section 12616. Id. at 211. It
also rejected plaintiffs’ procedural Due Process claim,
stating that “the legislative process itself provides
citizens with all of the process they are due.” Id.
(quoting Correa-Ruiz v. Fortuño, 573 F.3d 1, 15 (1st
Cir. 2009)).
This appeal followed.5

5

Plaintiff Club Gallístico de Puerto Rico, Inc. withdrew from this
appeal after the notice of appeal was filed.

App. 10
III. Analysis
We review the district court’s grant of summary
judgment de novo. Irish v. Fowler, 979 F.3d 65, 73 (1st
Cir. 2020). We first address the issue of standing,
followed by the Commerce Clause, First Amendment,
and Due Process arguments.
A. Standing
Federal courts have “an independent obligation to
assure that standing exists, regardless of whether it is
challenged by any of the parties.” Summers v. Earth
Island Inst., 555 U.S. 488, 499 (2009).
To have standing, a plaintiff must “‘allege[] such a
personal stake in the outcome of the controversy’ as to
warrant his invocation of federal-court jurisdiction.” Id.
at 493 (quoting Warth v. Seldin, 422 U.S. 490, 498-99
(1975)). “To satisfy Article III’s ‘personal stake’
requirement vis-à-vis a statutory challenge, the
plaintiff bears the burden of demonstrating that (i) she
has suffered an actual or threatened injury in fact,
which is (ii) fairly traceable to the statute, and (iii) can
be redressed by a favorable decision.” Ramírez v.
Sánchez Ramos, 438 F.3d 92, 97 (1st Cir. 2006) (first
citing Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61
(1992); and then citing Lewis v. Cont’l Bank Corp., 494
U.S. 472, 477 (1990)). “[A] plaintiff satisfies the
injury-in-fact requirement where he alleges ‘an
intention to engage in a course of conduct arguably
affected with a constitutional interest, but proscribed
by a statute, and there exists a credible threat of
prosecution thereunder.’” Susan B. Anthony List v.
Driehaus, 573 U.S. 149, 159 (2014) (quoting Babbitt v.

App. 11
United Farm Workers Nat’l Union, 442 U.S. 289, 298
(1979)).
We conclude that plaintiff Ángel Manuel Ortiz-Díaz,
the owner of two cockfighting venues and a breeder and
owner of more than 200 gamecocks, has standing to
challenge Section 12616. Ortiz faces a credible threat
of prosecution under Section 12616 because he
regularly sponsors and exhibits cockfighting matches
at his cockpits.6 The other standing requirements are
clearly met. Article III’s case-or-controversy
requirement is satisfied if at least one party has
standing. Bowsher v. Synar, 478 U.S. 714, 721 (1986).
We also hold that Ortiz’s claims are ripe. Ortiz’s
business is to sponsor and exhibit cockfights, and
Section 12616 bans such activity. Thus, there is a
controversy with “sufficient immediacy and reality to
warrant the issuance of a declaratory judgment.”
MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118, 127
(2007) (quoting Md. Cas. Co. v. Pac. Coal & Oil Co., 312
U.S. 270, 273 (1941)).

6

Although Section 12616 does not define “sponsor[ship]” or
“exhibit[ion],” the government has stated that it would
understand at least one of those terms to encompass Ortiz’s
conduct for purposes of enforcing the statute.
As to the other plaintiffs, each of them is involved in the same
class of commercial activities as Ortiz. See County of Los Angeles
v. Davis, 440 U.S. 625, 631 (1979); United States v. Poulin, 631
F.3d 17, 21 (1st Cir. 2011).

App. 12
B. Commerce Clause
Plaintiffs argue that Congress exceeded its
authority under the Commerce Clause in enacting
Section 12616.
The Commerce Clause empowers Congress to
regulate “activities that substantially affect interstate
commerce.” United States v. Lopez, 514 U.S. 549, 559
(1995). This includes “purely local activities that are
part of an economic ‘class of activities’ that have a
substantial effect on interstate commerce.” Gonzales v.
Raich, 545 U.S. 1, 17 (2005). “In assessing the scope of
Congress’ authority under the Commerce Clause, . . .
[w]e need not determine whether [plaintiffs’] activities,
taken in the aggregate, substantially affect interstate
commerce in fact, but only whether a ‘rational basis’
exists for so concluding.” Id. at 22 (quoting Lopez, 514
U.S. at 557).
In making this inquiry, we consider four factors:
(1) whether the statute regulates economic or
commercial activity; (2) whether the statute
contains an “express jurisdictional element” that
limits the reach of its provisions; (3) whether
Congress made findings regarding the regulated
activity’s impact on interstate commerce; and
(4) whether “the link between [the regulated
activity] and a substantial effect on interstate
commerce was attenuated.”
United States v. Morales-de Jesús, 372 F.3d 6, 10 (1st
Cir. 2004) (alteration in original) (quoting United
States v. Morrison, 529 U.S. 598, 610-12 (2000)).

App. 13
As to the first factor, plaintiffs argue in passing that
the statute “does not truly regulate economic or
commercial activity.” But, as explained by the Fourth
Circuit, the AWA bans animal fights for “purposes of
sport, wagering, or entertainment,” all of which are
“closely aligned in our culture with economics and
elements of commerce.” United States v. Gibert, 677
F.3d 613, 624 (4th Cir. 2012). And here, the
government does not assert that the jurisdictional
element, which defines the regulated activity as that
“in or affecting interstate or foreign commerce,” 7
U.S.C. § 2156(f)(1), would be satisfied were there no
commercial aspect to a particular cockfight. Moreover,
on this record, Ortiz’s sponsorship and exhibition of
cockfights for profit is clearly economic and
commercial, as are the activities of the remaining
plaintiffs.
As to the second factor, the plaintiffs argue that the
“express jurisdictional element” of the AWA -- which
bans all cockfighting “in or affecting interstate or
foreign commerce,” 7 U.S.C. § 2156(f)(1) -- is an
“illusion” which does not articulate a meaningful
boundary between interstate and intrastate commerce.
As the Supreme Court has explained, an express
jurisdictional element “may establish that the
enactment is in pursuance of Congress’ regulation of
interstate commerce,” Morrison, 529 U.S. at 612, and
can “ensure, through case-by-case inquiry, that the
[prohibited conduct] in question affects interstate
commerce,” Lopez, 514 U.S. at 561. And, as we have
noted above, the government does not argue that the
jurisdictional element would be satisfied as to a
cockfight lacking a commercial aspect. Thus, the

App. 14
jurisdictional element here is sufficient. See id. at
561-62.
As to the third factor, plaintiffs argue that Congress
made no findings regarding the 2018 amendments’
impact on interstate commerce. Plaintiffs assert that
we should not look to Congress’s reasons for banning
animal fighting ventures in general, because they
challenge only Section 12616. We disagree. Section
12616 extended the existing ban to Puerto Rico rather
than creating entirely new restrictions, so earlier
findings are relevant and must be considered.
Multiple congressional findings underscore the
interstate commercial impact of cockfighting. Congress
clarified in the AWA’s “statement of policy” that the
“animals and activities which are regulated under this
chapter are either in interstate or foreign commerce or
substantially affect such commerce or the free flow
thereof.” 7 U.S.C. § 2131. As pointed out by the Fourth
Circuit, the House Report discussing the 1976
amendments found that animal fighting ventures
“(a) attract fighting animals and spectators from
numerous states, (b) are or have been advertised in
print media of nationwide circulation, and (c) often
involve gambling and other ‘questionable and criminal
activities.’” Gibert, 677 F.3d at 625 (quoting H.R. Rep.
No. 94-801, at 9 (1976), as reprinted in 1976
U.S.C.C.A.N 758, 761). Senator Maria Cantwell also
noted that cockfighting can contribute to the spread of
avian flus, a concern of particular importance given the
present ongoing COVID-19 pandemic. See 153 Cong.
Rec. S451-52 (daily ed. Jan. 11, 2007) (Statement of
Sen. Cantwell).

App. 15
As to the fourth factor, plaintiffs argue that Section
12616's effect on interstate commerce is incidental and
attenuated. In light of the jurisdictional hook, and the
nature of the plaintiffs’ relationship to commercial
cockfighting, in this case the effects on interstate
commerce are certainly not incidental.
These factors require the conclusion that the
prohibitions in the statute are about activities which
substantially affect interstate commerce. We hold that
Section 12616 is a legitimate exercise of the Commerce
Clause power.7
B. First Amendment
Plaintiffs argue that Section 12616 infringes on
their First Amendment freedoms of speech and
association. We reject both claims.
The First Amendment states that “Congress shall
make no law . . . abridging the freedom of speech.” U.S.
Const. amend. I. Conduct “sufficiently imbued with
elements of communication” is also protected under the
First Amendment. Texas v. Johnson, 491 U.S. 397, 404
(1989) (quoting Spence v. Washington, 418 U.S. 405,
409 (1974)). However, conduct cannot “be labeled
‘speech’ whenever the person engaging in the conduct
intends thereby to express an idea.” United States v.
O’Brien, 391 U.S. 367, 376 (1968). In deciding whether
conduct deserves First Amendment protection, we ask
both whether it was “intended to be communicative”
and whether it, “in context, would reasonably be

7

As the Commerce Clause power is sufficient, we need not reach
the Territorial Clause issue.

App. 16
understood by the viewer to be communicative.” Clark
v. Cmty. for Creative Non-Violence, 468 U.S. 288, 294
(1984). “It is the duty of the party seeking to engage in
allegedly expressive conduct to demonstrate that the
First Amendment applies to that conduct.” Wine &
Spirits Retailers, Inc. v. Rhode Island, 418 F.3d 36, 49
(1st Cir. 2005).
Plaintiffs argue that cockfighting in Puerto Rico is
expressive conduct entitled to First Amendment
protection. We disagree. Plaintiffs’ assertion that
cockfighting “express[es] their culture and deeply
rooted sense of self-determination” is insufficient to
show that their sponsorship or exhibition of
cockfighting “would reasonably be understood by the
viewer to be communicative.” Cmty. for Creative
Non-Violence, 468 U.S. at 294; see also United States
v. Stevens, 559 U.S. 460, 469 (2010) (recognizing “long
history” of banning animal cruelty). By the same token,
the O’Brien test does not apply here because plaintiffs
have failed to identify any expressive element in the
cockfighting activities that they engage in such that
Section 12616 could be considered even an incidental
burden on speech. See O’Brien, 391 U.S. at 376-77.
Even had plaintiffs shown that their cockfighting
activities contained some expressive element, Section
12616 is plainly permissible as an incidental restraint
on such speech. See id. at 377.
Plaintiffs next argue that Section 12616 infringes
on their First Amendment associational right to
“peaceably . . . assemble.” U.S. Const. amend. I. They
argue that “the criminalization of cockfighting in
Puerto Rico deters Appellants from assembling to

App. 17
discuss and express their views regarding
cockfighting.” This argument fails. Nothing in Section
12616 curtails any discussion or expression of a
person’s views regarding cockfighting, and this section
does not restrict assembly for those purposes at all. See
Knox v. Serv. Emps. Int’l Union, Local 1000, 567 U.S.
298, 309 (2012) (noting that under the Free Assembly
Clause, “the ability of like-minded individuals to
associate for the purpose of expressing commonly held
views may not be curtailed”); Holder v. Humanitarian
L. Project, 561 U.S. 1, 39 (2010) (distinguishing prior
free association cases that penalize “mere” or “simple”
association as opposed to “the act of giving material
support” (quoting Humanitarian L. Project v. Reno, 205
F.3d 1130, 1133 (9th Cir. 2000))). Section 12616 cannot
be invalidated on this ground.8
C. Due Process
Plaintiffs next argue that the passage of Section
12616 violated their procedural and substantive Due
Process rights.
Plaintiffs conceded at oral argument that they have
no cognizable liberty interest at stake other than their
purported First Amendment interest. That concession
dooms the argument they are making. Even apart from
their concession, plaintiffs have not shown that they

8

Plaintiffs’ reference to the Universal Declaration of Human
Rights is of no avail. “[T]he Declaration does not of its own force
impose obligation as a matter of international law.” Sosa v.
Alvarez-Machain, 542 U.S. 692, 734 (2004); see also Medellín v.
Texas, 552 U.S. 491, 504-05 (2008) (stating that non-self-executing
treaties do not create domestic law).

App. 18
have any cognizable liberty interest which is being
infringed by these prohibitions. We reject their
procedural and substantive Due Process challenges.9
See U.S. Const. amends. V, XIV (protecting only
against the deprivation of “life, liberty, or property,
without due process of law”); Bd. of Regents of State
Colls. v. Roth, 408 U.S. 564, 569-70 (1972).
IV. Conclusion
The judgment of the district court is affirmed.

9

It is still unsettled whether due process requirements apply to
Puerto Rico by way of the Fifth or Fourteenth Amendment. See
Tenoco Oil Co. v. Dep’t of Consumer Affs., 876 F.2d 1013, 1017 n.9
(1st Cir. 1989). This is of no matter, because “the language and
policies of the Due Process Clauses of the Fifth and Fourteenth
Amendments are essentially the same.” United States v. Neto, 659
F.3d 194, 201 n.7 (1st Cir. 2011) (internal quotation marks and
citation omitted).

App. 19

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
CIVIL NO. 19-1481 (GAG); (consolidated with
Civil No. 19-1739 (GAG))
[Filed October 28, 2019]
__________________________________________
CLUB GALLISTICO DE PUERTO RICO )
INC. et al.,
)
)
Plaintiffs,
)
)
v.
)
)
UNITED STATES OF AMERICA et al., )
)
Defendants.
)
__________________________________________)
OPINION AND ORDER
“What’s good for the goose is good for the gander.”
This well-known proverb illustrates the central issue in
the case at bar: equal treatment before the law. In
United States v. Pedro-Vidal, 371 Supp. 3d 57 (D.P.R.
2019), the Court noted that since the territory of Puerto
Rico’s acquisition in 1898, “Congress has enacted
thousands of federal laws that apply therein.” Id. at 58.
Moreover,
Congress has the authority to enact laws that
apply to citizens in the territory of Puerto Rico
exactly as they would to citizens in the States.

App. 20
However, by way of legislation, Congress may
treat differently citizens in the territory, for
example, those which cap Social Security,
Medicare, and Veteran benefits.
Id. at 58-59. The Pedro-Vidal case involved the Federal
Death Penalty Act of 1994 (FDPA), 18 U.S.C.
§§ 3591-3598, and whether it applied to the
Commonwealth of Puerto Rico just as in every state.
The Court ruled that it did. Similarly, Section 12616 of
the Agriculture Improvement Act of 2018, infra, that
amends the Animal Welfare Act of 1966 (AWA), infra,
falls within that first category of laws. Under the
Commerce Clause, Congress has the unquestionable
authority to treat the Commonwealth equally to the
states. Neither the Commonwealth’s political status,
nor the Territorial Clause, impede the United States
Government from enacting laws that apply to all
citizens of this Nation alike, whether in a state or
territory.
On May 22, 2019 Club Gallístico de Puerto Rico,
Inc. (“Club Gallístico”) and other plaintiffs1 filed a
Complaint (Civil No. 19-1481 (GAG)), pursuant to the
Declaratory Judgment Act, 28 U.S.C. §§ 2201-2202,
against the President of United States, the United
States Government, and other defendants2 alleging

1

The other plaintiffs include Mr. Luis Joel Barreto Barreto, Mr.
Faustino Rosario Rodríguez, Mr. Carlos Quiñones Figueroa, and
Mrs. Nydia Mercedes Hernández. (Docket No. 1).
2

The other defendants are: the U.S. Attorney General, the U.S.
Department of Justice, the U.S. Secretary of Agriculture and the
Department of Agriculture. (Docket No. 1).

App. 21
that the recent Section 12616 amendments to the AWA
which extend the prohibition on animal fighting
ventures to the Commonwealth of Puerto Rico and
other territories violate bedrock principles of
federalism and rights protected under the United
States Constitution. On August 1, 2019, Asociación
Cultural y Deportiva del Gallo Fino de Pelea
(“Asociación Cultural”) and other plaintiffs3 filed a
parallel complaint (Civil No. 19-1739 (GAG)), against
the United States Government and all other
defendants proffering similar allegations as in Club
Gallístico’s suit and pleading additional constitutional
rights violations. On August 5, 2019, this Court
consolidated both actions.4
The two lead Plaintiffs, Club Gallístico and
Asociación Cultural, are both non-profit organizations
involved in the Commonwealth of Puerto Rico’s
cockfighting industry. (Docket Nos. 1; 16). The former
operates one of the largest and “most visited”
cockfighting arenas in the island and the latter is an
association whose goal is to promote and preserve
cockfighting in the territory. Id. The remaining
Plaintiffs have participated in the Commonwealth’s
cockfighting world as cockpit owners, cockpit judges
and other officials, gamecock breeders and owners,
artisans, and otherwise cockfighting enthusiasts. They
3

The other plaintiffs include Mr. Ángel Manuel Ortiz Díaz, Mr.
John J. Oliveras Yace, Mr. Ángel Luis Narváez Rodríguez and Mr.
José Miguel Cedeño. (Docket No. 16).
4

On this date, Club Gallístico and others amended their original
complaint to include a new plaintiff, Mrs. Laura Green. (Docket
No. 21).

App. 22
all request this Court to issue a declaratory judgment
holding that the Section 12616 amendments are
unconstitutional. Following the filing of the
Complaints, the parties agreed to a fast-tracked
briefing schedule for summary judgment cross-motions
and replies.
Currently, pending before the Court are Plaintiff
Club Gallístico and others’ Motion for Summary
Judgment (Docket No. 34) and Defendant United
States and others’ Cross-Motion for Summary
Judgment.5 (Docket No. 38).
I.

Background
A. Legal History of Cockfighting

According to the Encyclopedia Britannica,
cockfighting is “the sport of pitting gamecocks to fight
and the breeding and training of them for that
purpose.” Cockfighting, Encyclopædia Britannica
(2016). Similarly, renowned folklorist Alan Dundes
indicates that “[t]he cockfight, in which two equally
matched roosters -typically bred and raised for such
purposes and often armed with steel spurs
(gaffs)—engage in mortal combat in a circular pit
surrounded by mostly if not exclusively male
spectators, is one of the oldest recorded human games
or sports.” A. Dundes, THE COCKFIGHT: A CASEBOOK vii

5

For purposes of this Opinion and Order, the Court will either
refer to Plaintiffs and Defendants collectively or only to lead
Plaintiff Club Gallístico and/or Defendant United States.
Notwithstanding, the Court’s reasonings and rulings equally apply
to all Plaintiffs and Defendants.

App. 23
(University Wisconsin Press, 1994). Professor Dundes
further highlights that the contest has been “banned in
many countries on the grounds that that [it] constitutes
inhumane cruelty to animal” yet “continues to flourish
as an undergrounds or illegal sport.” Id.
In colonial North America, cockfighting was
introduced at an early date and reached its peak
popularity between 1750 and 1800, notably in the
colonies that extended from North Carolina to New
York. Ed Crews, Once Popular and Socially Acceptable:
Cockfighting, The Colonial Williamsburg Journal
(Autumn 2008) available at https://www.history.org/
Foundation/journal/Autumn08/rooster.cfm.
Nonetheless, during these years colonial authorities
occasionally tried to ban it. For example, in 1752, the
College of William and Mary directed its students to
avoid it all together. Id. Following the Revolutionary
War, “some citizens of the new United States looked
upon cockfighting as an unsavory vestige of English
culture and advocated its abandonment.” Id. By the
mid-1800s, cockfighting was mostly considered “cruel
and wrong” and several states had passed laws against
animal cruelty, including Massachusetts. Id.; see also
Commonwealth v. Tilton, 49 Mass. 232 (1844).
In the case of Puerto Rico, historians posit that
cockfighting has been practiced in the island since the
late eighteenth century. Following the United States’
acquisition of the territory in 1898, General Guy
Vernor Henry, the island’s second military governor,
enacted a law forbidding animal cruelty, which
specifically included cockfights. See BEAKS AND SPURS:
COCKFIGHTING IN PUERTO RICO, National Register of

App. 24
Historic Places Multiple Property Documentation
Form, National Parks Services (May 29, 2014). This
prohibition lasted until August 12, 1933 when
Governor Robert Hayes Gore approved a law, authored
by then Senate President Rafael Martínez Nadal,
making these contests legal once again. In the decades
following this law’s approval, others were passed that
sought to regulate every aspect of this industry. The
most recent of these laws is the Puerto Rico Gamecocks
of the New Millennium Act, Act 98-2017 as amended,
P.R. LAWS ANN. tit. 15, §§ 301 et seq. Under this Act,
the Commonwealth’s government enabled cockfighting;
delegated its oversight to the Sports and Recreation
Department; authorized the issuance of licenses to
cockpits, gamecock breeders, and cockfight judges; and,
established penalties for anyone who violated this law.
Id.
On the other hand, and as detailed in the
subsequent section, since 1976 Congress has
progressively outlawed cockfighting throughout the
Nation. Parallel to efforts at the federal level, all fifty
states, and the District of Columbia, have effectively
prohibited these fighting ventures. See COCKFIGHTING
LAWS, National Conference of State Legislatures, Vol.
22, No. 1 (January 2014). Louisiana’s ban passed in
2007 and it is the most recent state legislative action in
this direction. Id. Although cockfighting remains
illegal in all states, punishments vary across the board;
some states prohibit ancillary activities, thirty-one
states permit possession of cockfighting implements
and twelve states allow possession of fighting
live-birds, even though cockfighting itself remains
illegal. Id. Until the passage of the Agriculture

App. 25
Improvement Act of 2018, the only jurisdictions that
had not proscribed cockfights comprised the
Commonwealth of Puerto Rico, Guam, the
Commonwealth of the Northern Mariana Islands and
the United States Virgin Islands. Id.
B. The Animal Welfare Act of 1966
In 1966, Congress enacted the Laboratory Animal
Welfare Act (LAWA) primarily “to protect the owners
of dogs and cats from theft of such pets” and to prevent
the sale or use of stolen pets and ensure humane
treatment in research facilities. See Laboratory Animal
Welfare Act, 7 U.S.C. §§ 2131-2159 (1994 & Supp. V).
Four years later, the Animal Welfare Act of 1970
amended the LAWA to more generally address issues
concerning mammal and bird brutality. In 1976, and
relevant to this case, the Animal Welfare Act
Amendments of 1976 outlawed for the first-time all
animal fighting ventures in which animals were moved
in interstate or foreign commerce. See P. L. No. 94-279,
90 Stat. 417 (1976). An animal fighting venture
extended to any event involving a fight “between at
least two animals” for purposes “of sport, wagering, or
entertainment”, except events where animals hunt
other animals. Id. Anyone found engaging in these
activities was subject to a monetary fine ($5,000
maximum) or imprisonment (1-year maximum). Id.
Nonetheless, the amendments contained a provision,
sub-section (d), which exempted live-bird fighting
ventures if the fight occurred “in a State where it would
be in violation of the laws thereof.” Id. For purposes of
the AWA, the term “State” included, and still does, “the

App. 26
Commonwealth of Puerto Rico, and any territory or
possession of the United States.” Id.
Following this initial ban, Congress has gradually
expanded the range of animal fighting prohibitions,
notably those concerning live-bird fights. In 2002, the
Farm Security and Rural Investment Act of 2002, P. L.
No. 107-171, 116 Stat. 134 (2002), limited the live-bird
exemption through a “Special Rule for Certain States”
provision which applied to persons who sponsored or
exhibited live-birds in a fighting venture only if said
persons knew that “any bird in the fighting venture
was knowingly bought, sold, delivered, transported, or
received in interstate or foreign commerce.” Id. In 2007,
the Animal Fighting Prohibition Enforcement Act, Pub.
L. No. 110-22, 121 Stat. 88 (2007), increased the
imprisonment penalty to a 3-year maximum and made
it unlawful for a person to “knowingly sell, buy,
transport, or deliver in interstate or foreign commerce
a knife, a gaff, or any other sharp instrument attached,
or designed or intended to be attached, to the leg of a
bird” for purposes of a live-bird fighting venture. Id.
The “sharp instruments” prohibition applied equally to
all “States”, as defined under the AWA. Id. Pursuant to
these amendments, Congress also modified the wording
of the 1976 original exemption, sub-section (d). Given
the 2002 “Special Rule for Certain States” provision,
sub-section (d) was now limited to exempt these States
from complying with the prohibition on the use of the
mail service of the United States Postal Service for
purposes of promoting or furthering an animal fighting
venture. Id.

App. 27
The following year, the Food Conservation and
Energy Act of 2008, P. L. No. 110-234, 122 Stat. 923
(2008), increased yet again the imprisonment sentence
to a five-year maximum and expanded the prohibitions
to generally include “possessing” and “training”
animals for fighting purposes. Id. Like the 2007
amendments, Congress made no exemptions for States
that lawfully permitted animal fighting ventures.
Finally, in 2014 the Agricultural Act of 2014, P. L. No.
113-79, 128 Stat. 649 (2014), banned the attendance to
animal fights, or causing individuals less than 16 years
old to attend such activities. Likewise, Congress did not
make an exception for jurisdictions which had not
proscribed live-bird fighting.
To summarize, prior to the enactment of the Section
12616 amendments of 2018, at the federal level a
person could not knowingly sponsor or exhibit a
live-bird in a fighting venture, except in jurisdictions
where it was legal pursuant to the “Special Rule for
Certain States” provision, 7 U.S.C. § 2156(a)(3), unless
the person knew that the birds participating in the
fight were “bought, sold, delivered, transported or
received” in interstate or foreign commerce for this
purpose. Similarly, a person could not: (1) attend an
animal fighting venture or cause a minor younger than
16 years old to attend; (2) possess or train any animal
for purposes of a fighting venture; and (3) sell, buy,
transport or deliver in interstate commerce any sharp
instruments to be attached to a live-bird’s leg for
fighting. Finally, it was illegal to use the U.S. Postal
Service to advertise an animal fighting venture or
promote sharp instruments designed for live-bird
fights, except if this transpires in a state were live-bird

App. 28
fighting was legal under sub-section (d), 7 U.S.C.
§ 2156(d).
II.

Motions for Summary Judgment

The parties have both filed statement of
uncontested facts and objections to each other’s. On the
one side, Defendants allege that Plaintiffs fail to
comply with Local Rule 56 and FED. R. CIV. P. 56
because most of their proposed facts are immaterial,
conclusory or contain information lacking sufficient
knowledge to assess its veracity or falsity. (Docket No.
39 at 1-2). For this reason, Defendant United States
proposes its own set of seven (7) undisputed facts. Id. at
13-14. On the other hand, Plaintiff Club Gallístico’s
objects to Defendants’ proposed facts and contends that
most statements concern questions of law that should
be disregarded. (Docket No. 58 at 1).
A. Local Rule 56
Under Local Rule 56, L. CV. R. 56, if a party
improperly controverts the facts, the Court may treat
the opposing party’s facts as uncontroverted. See
Puerto Rico Am. Ins. Co. v. Rivera-Vazquez, 603 F.3d
125, 130 (1st Cir. 2010). Similarly, the Court can ignore
“conclusory allegations, improbable inferences, and
unsupported speculation.” Rossy v. Roche Prod., Inc.,
880 F.2d 621, 624 (1st Cir. 1989). Because Plaintiffs
filed the present Complaint pursuant to the
Declaratory Judgment Act and plead a pre-enforcement
facial, and at times as-applied, constitutional challenge
to Section 12616, the Court will only consider those
undisputed and uncontested facts which are essential
to evaluate these contentions.

App. 29
B. Relevant Facts
On December 20, 2018 Congress approved the
Section 12616 amendments, under the Agriculture
Improvement Act of 2018, PL 115-334, 132 Stat. 4490
(2018). (Docket Nos. 39 ¶ 1; 58 ¶ 1). The provisions of
Section 12616 go into effect one year after the date of
its enactment, to wit, December 20, 2019. (Docket Nos.
39 ¶ 2; 58 ¶ 2). These amendments eliminate the
“Special Rule for Certain States” and sub-section(d)
provisions contained in the “Animal Fighting Venture
Prohibition” section of the AWA, 7 U.S.C. § 2131 et seq.
(Docket Nos. 34 ¶ 12; 39 ¶ 3). The ultimate effect, thus,
is the prohibition of animal fighting ventures, including
live-bird fighting, in every United States jurisdiction,
including the Commonwealth of Puerto Rico. Id.
All plaintiffs have participated in animal fighting
events, specifically those involving live-birds, either
operating or assisting in the operation of these
ventures in a manner that might be construed as
sponsoring or exhibiting an animal fighting ventures.
(Docket No. 34 ¶¶ 4; 29). Plaintiffs have also bought or
sold live-birds, and “sharp instruments” as defined by
the AWA, in interstate commerce for fighting and
non-fighting purposes. (Docket No. 34 ¶¶ 26-27).
Besides the parties, the Commonwealth of Puerto
Rico, the Resident Commissioner (the sole
representative in Congress from the Commonwealth),
the Commonwealth’s House of Representatives and
Senate, the Asociación de Alcaldes (Mayors’

App. 30
Association),6 the Municipality of Mayagüez, and
Attorney Juan Carlos Albors have presented briefs, as
amici curiae, in support of Plaintiffs.7
C. Arguments in Support of Motions for
Summary Judgment
Plaintiffs’ Motion for Summary Judgment
arguments can be classified in two main categories:
structural constitutional violations, notably to
federalism principles, and fundamental rights
infringements. First, Plaintiff Club Gallístico claims
that Section 12616: (1) exceeds Congress’s authority to
regulate and legislate cockfighting activities under the
Commerce Clause and the Territorial Clause;
(2) violates the Tenth Amendment’s anticommandeering doctrine; (3) constitutes a bill of
attainder, and (4) is “locally inapplicable” to the
Commonwealth of Puerto Rico pursuant to the Federal
Relations Act, 48 U.S.C. § 734. As for the second line of
arguments, Plaintiffs assert that Section 12616
specifically infringes a “cultural right” to cockfighting
and more broadly violates their First Amendment
freedom of speech and association rights, their Fifth
Amendment substantive and procedural Due Process
rights, and limits their right to travel. Finally,

6

The Court notes that this party’s brief was originally stricken
from the record (Docket No. 46) as it referred to the President of
the United States in an improper manner. A corrected brief was
filed the next day. (Docket No. 48).
7

The Court also notes that it did not consider the untimely filed
amicus brief by the Animal Wellness Foundation, in support of
Defendants’ cross-motion for summary judgment. (Docket No. 76).

App. 31
Plaintiffs assert that the enforcement provision of
Section 12616 effectively amounts to an impermissible
taking of their property because it has devalued and,
thus, requires a just compensation.
In turn, Defendants posit in their Cross-Motion for
Summary Judgment that, pursuant to the Commerce
Clause and the Territorial Clause, Congress can
restrict animal fighting in the fifty States and extend
this prohibition to all territories. Defendants also
contend that the Tenth Amendment does not apply to
the Commonwealth of Puerto Rico and that Section
12616 preempts, through the Supremacy Clause any
law or regulation that legalizes cockfighting in the
territory. Similarly, Defendant further argues that
Section 12616 does not meet the exceptional
requirements that produce a bill of attainder, that
Congress explicitly intended the amendments to apply
it in the territory and that no physical or regulatory
taking has, or will, occur because property devaluation
needs no compensation. Consequently, Defendants
conclude that Section 12616 does not violate the
Constitution in any form or manner. Additionally,
Defendants aver that Plaintiff Club Gallístico lacks
standing to challenge several AWA provisions because
they were not contested within the general six-year
statute of limitations, under 28 U.S.C. § 2401(a).
Plaintiffs’ Reply to Defendants’ motion for summary
judgment rehashes most of their main arguments and,
additionally, argues that they have standing to attack
those AWA provisions that now fully apply to the
Commonwealth. (Docket No. 57).

App. 32
Grounded on the foregoing analysis, Plaintiff Club
Gallístico and others’ Motion for Summary Judgment
is DENIED and Defendant United Sates and others’
Cross-Motion for Summary Judgment is GRANTED.
D. Standard of Review
Summary judgment is appropriate when “there is
no genuine issue as to any material fact and that the
moving party is entitled to a judgment as a matter of
law.” Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986). See FED. R. CIV. P. 56(a). A “genuine” issue is
one that could be resolved in favor of either party, and
a “material fact” is one that has the potential of
affecting the outcome of the case. See Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248-50 (1986); see
also Calero-Cerezo v. U.S. Dep’t of Justice, 355 F.3d 6,
19 (1st Cir. 2004). Under Rule 56, “[t]he evidence
illustrating the factual controversy cannot be
conjectural or problematic; it must have substance in
the sense that it limns differing versions of the truth
which a factfinder must resolve.” Medina-Muñoz v. R.J.
Reynolds Tobacco Co., 896 F.2d 5, 8 (1st Cir. 1990).
Under this standard, “[i]f the evidence is merely
colorable, or is not significantly probative, summary
judgment may be granted.” Id. (citing Anderson, 477
U.S. at 249-50). Finally, summary judgment may be
appropriate if the parties “merely rest upon conclusory
allegations, improbable inferences, and unsupported
speculation.” Rossy, 880 F.2d at 624; see also
Rivera-Rivera v. Medina & Medina, Inc., 898 F.3d 77,
87 (1st Cir. 2018).
“Cross-motions for summary judgment do not alter
the summary judgment standard, but instead simply

App. 33
require [the Court] to determine whether either of the
parties deserves judgment as a matter of law on the
facts that are not disputed.” Wells Real Estate Inv.
Trust II, Inc. v. Chardon/Hato Rey P’ship, S.E., 615
F.3d 45, 51 (1st Cir.2010) (citing Adria Int’l Group, Inc.
v. Ferré Dev. Inc., 241 F.3d 103, 107 (1st Cir.2001))
(internal quotation marks omitted). Although each
motion for summary judgment must be decided on its
own merits, “each motion need not be considered in a
vacuum.” Watchtower Bible Tract Soc’y of New York,
Inc. v. Municipality of Ponce, 197 F. Supp. 3d 340, 348
(D.P.R. 2016) (citing Wells Real Estate, 615 F.3d at 51).
“Where, as here, cross-motions for summary judgment
are filed simultaneously, or nearly so, the district court
ordinarily should consider the two motions at the same
time, applying the same standards to each motion.”
Wells Real Estate, 615 F.3d at 51 (quoting P.R.
American Ins., 603 F.3d at 133) (internal quotation
marks omitted).
Besides this well-known standard, the Court also
considers the Supreme Court’s formulations for
assessing a declaratory judgment that challenges
statutes, facially and as-applied, grounded on
constitutional rights violations. See Libertarian Party
of New Hampshire v. Gardner, 843 F.3d 20, 24 (1st Cir.
2016). See also Gillian E. Metzger, Facial and
As-Applied Challenges Under the Roberts Court, 36
FORDHAM URB. L. J. 773, 796 (2009). The Declaratory
Judgment Act serves the valuable purpose of enabling
litigants to clarify legal rights and obligations before
acting upon them. Ernst & Young v. Depositors Econ.
Prot. Corp., 45 F.3d 530, 534-35 (1st Cir. 1995). The
question in declaratory judgments is “whether the facts

App. 34
alleged, under all the circumstances, show that there is
a substantial controversy, between parties having
adverse legal interests, of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.” MedImmune, Inc. v. Genentech, Inc., 549
U.S. 118, 127 (2007). For this reason, “federal courts
retain substantial discretion in deciding whether to
grant declaratory relief.” Ernst & Young, 45 F.3d at
534.
On the other hand, in United States v. Salerno, 481
U.S. 739, the Supreme Court held that a
pre-enforcement facial challenge can only succeed
where the plaintiff “establishes that no set of
circumstances exists under which the Act would be
valid.” Id. at 745. See also Hightower v. City of Bos.,
693 F.3d 61, 77-78 (1st Cir. 2012) (“[T]hat the statute
lacks any plainly legitimate sweep.”) (citations omitted)
(internal quotation marks omitted). Similarly, in an
as-applied challenge, when plaintiff alleges “an
intention to engage in a course of conduct arguably
affected with a constitutional interest, but proscribed
by a statute, and there exists a credible threat of
prosecution thereunder” he or she “should not be
required to await and undergo a criminal prosecution
as the sole means of seeking relief.” Babbitt v. United
Farm Workers Nat’l. Union, 442 U.S. 289, 298 (1979)
(internal quotation marks omitted). See also Sindicato
Puertorriqueño de Trabajadores v. Fortuño, 699 F.3d 1,
9 (1st Cir. 2012); McGuire v. Reilly, 230 F. Supp. 2d
189, 191 n. 5 (D. Mass. 2002), aff’d, 386 F.3d 45 (1st
Cir. 2004).

App. 35
In the end, a fundamental premise of judicial review
requires courts to presume that all legislation is
constitutional. When presented with a claim to
invalidate a congressional enactment, a court must find
a “plain showing that Congress has exceeded its
constitutional bounds.” United States v. Morrison, 529
U.S. 598, 607 (2000).
III.

Discussion
A. Standing

Defendants argue that Plaintiffs lack standing to
challenge the constitutionality of several provisions
contained in the AWA that were “unaffected by
[Section] 12616 [] and have applied to Puerto Rico for
years.” (Docket No. 38 at 6). Specifically, Defendant
United States posits that Plaintiff Club Gallístico’s
motion for Summary Judgment attempts to invalidate
the prohibition on: (1) attending animal fighting
venture; (2) possessing live-birds intended for fighting,
and (3) selling and/or buying “sharp instruments”
designed for live-bird fights. See 7 U.S.C. §§ 2156(a)(2);
2156(b); 2156(e). Defendants assert that these
provisions applied to the Commonwealth prior to
Section 12616’s passage. These statutory prohibitions,
as explained by Defendants, were enacted in 2014,
2002, and 2007, accordingly. Thus, they cannot be
challenged because any such action would fall outside
the six-year statute of limitations, under 28 U.S.C.
§ 2401(a) (“[E]very civil action commenced against the
United States shall be barred unless the complaint is
filed within six years after the right of action first
accrues.”)

App. 36
Plaintiffs contend that Defendants’ argument
“makes no sense” because “How can Plaintiffs Sponsor
or exhibit their birds for cockfighting if possessing
gamecocks is illegal? How can Plaintiffs Sponsor or
exhibit their birds for cockfighting if they cannot attend
cockfights?” (Docket No. 57 at 4) (emphasis in original).
To support this assertion, Plaintiff Club Gallístico
claims that “the statute of limitations applicable was
equitably tolled, simply because the [a]gencies in
charge of enforcement did not do so. So there was no
need to seek redress [,] because in [the Commonwealth]
cockfighting is, and was, legal during the statutory
period [and] the limitations period had not run.”
(Docket No. 57 at 5-6). Similarly, Plaintiffs advance
that their Complaint was timely filed under the
“reopener doctrine” and that their claims are not
barred by laches. Id. at 7-8.
The doctrine of standing involves “both
constitutional and prudential dimension.” Mangual v.
Rotger-Sabat, 317 F.3d 45, 56 (1st Cir. 2003). “An
inquiry into standing must be based on the facts as
they existed when the action was commenced.” Id. To
satisfy “Article III’s personal stake requirement
vis-à-vis a statutory challenge,” plaintiffs bear the
burden of demonstrating that they: (1) have suffered an
actual or threatened injury in-fact, which is (2) fairly
traceable to the statute, and (3) can be redressed by a
favorable decision. See Lujan v. Defenders of Wildlife,
504 U.S. 555, 560-61 (1992); see also Ramírez v.
Sanchez Ramos, 438 F.3d 92, 97 (1st Cir. 2006)
Given the declaratory remedy sought by Plaintiffs,
and the Supreme Court’s standard for evaluating facial

App. 37
and as-applied challenges to statutes, the Court holds
that Plaintiffs indeed have standing to challenge the
constitutionality of Congress’ extension of the animal
fighting prohibition to the Commonwealth of Puerto
Rico and those provisions that have existed prior to
Section 12616’s approval. When assessing alleged
constitutional rights violations, “a credible threat of
present or future prosecution itself works an injury
that is sufficient to confer standing, even if there is no
history of past enforcement.” New Hampshire Right to
Life Political Action Comm. v. Gardner, 99 F.3d 8, 13
(1st Cir. 1996) (citing Doe v. Bolton, 410 U.S. 179, 188
(1973)). Nonetheless, the fact that these provisions
have not been frequently enforced or prosecuted by the
federal government does not entail that they have not
been applicable to the Commonwealth since 2002, 2007
and 2014, respectively.8
B. Federalism, Commerce Clause and
Territorial Clause
The Federalism doctrine involves the shared
distribution of power between our national and state
governments, while separation of powers principles
establish a system of “checks and balances” between
the three branches of government. See Erwin
Chemerinsky, CONSTITUTIONAL LAW: PRINCIPLES AND

8

In 2016, the Federal Government filed a criminal complaint
against defendant Mr. Ehbrín Castro-Correa, for violating 7 U.S.C.
§ 2156(b) by unlawfully possessing and training dogs for fighting
purposes. Following trial, a jury found Mr. Castro-Correa guilty of
this charge and he was sentenced to twenty-one months of
imprisonment by this same Court. See United States v.
Castro-Correa, No. 16-153 (PG/GAG).

App. 38
POLICIES 1 (5th Ed., 2015). In the present case, both
doctrines are intertwined. When the citizens of a state,
or territory, challenge the legislative and executive’s
powers to act and regulate their affairs, the judicial
branch asserts its power and is called to solve the
controversy. However, a court cannot sit as a
“super-legislator” to amend or repeal the work of the
other branches, absent a clear showing that they have
exceeded the limits of the Constitution. Under our
federalist structure and the separation of powers
framework, Congress has the undeniable authority to
treat the Commonwealth of Puerto Rico uniformly to
the States and eliminate live-bird fighting ventures
across every United States jurisdiction. The source of
this authority rests primarily in the Commerce Clause
and Supremacy Clause and alternatively in the
Territorial Clause.
a. Commerce Clause
Plaintiffs’ main argument involves an allegation
that Section 12616 was not enacted to regulate
interstate commerce, under the Commerce Clause, but
rather “to burden [them] on the basis of their identity
as residents of a territory” and does not pass rational
basis review. (Docket No. 34 at 21). In support,
Plaintiff Club Gallístico avers that these amendments
are essentially a “criminal law that have nothing to do
with commerce,” Id. at 24, and that Congressional
findings do not support the same because “no
committee and/or public hearings . . . were scheduled.”
Id. at 42. Plaintiff Club Gallístico further contends
that other states have on “their own volition and
choosing, decided to make cockfighting illegal, not the

App. 39
federal government.” Id. at 26. Finally, Plaintiffs assert
that Congress cannot ban these fighting events based
on “moral concerns” as reflected from the statements
made by members of Congress during the House of
Representatives session debate about the Section
12616 amendments.
On the other hand, the United States argues that
other federal courts “have had no difficulty finding the
animal fighting prohibition, as applied to the states, to
be an appropriate exercise of the Commerce Clause.”
(Docket No. 38 at 8). Thus, in this case, the same
analysis should apply. In United States v. Gilbert, 677
F. 3d 613 (4th Cir. 2012), the Court held that “Congress
acted within the limitations established by the
Commerce Clause in enacting the animal fighting
statute.” Id. at 624.9 Plaintiffs contend that Gilbert
should not apply because the case is of “criminal
nature.” (Docket No. 57 at 8-9). Such proposition is
flawed. Congress, pursuant to the Commerce Clause,
may enact both civil and criminal laws. See generally
United States v. López, 514 U.S. 549 (1995).
The Commerce Clause delegates to Congress the
power “to regulate commerce with foreign nations, and
among the several states, and with the Indian tribes.”
U.S. CONST. art. I, § 8, cl. 3. Congress moreover has the
authority under the Commerce Clause to regulate
9

Defendants also cite, in support of their Commerce Clause
position,the following cases: United States v. Lawson, 677 F.3d
629 (4th Cir. 2012); Slavin v. United States, 403 F.3d 522 (8th Cir.
2005); United States v. Thompson, 118 F. Supp. 2d 723 (W.D. Tex.
1998); United States v. Bacon, 2009 WL 3719396 (S.D. Ill. Nov. 5,
2009).

App. 40
commerce with the Commonwealth of Puerto Rico.
Trailer Marine Transport Corp. v. Rivera Vazquez, 977
F.2d 1, 7, n. 3 (1st Cir. 1992); accord Estado Libre
Asociado v. Northwestern Selecta, 185 P.R. Dec., P.R.
Offic. Trans., 40 (P.R. 2012). See also Consejo de Salud
Playa de Ponce v. Rullán, 586 F. Supp. 2d 22, 37
(D.P.R. 2008).
The judicial test for analyzing a challenge under the
Commerce Clause has evolved over the past decade
following the Supreme Court’s rulings in United States
v. López and United States v. Morrison, 529 U.S. 598
(2000); see also Gonzales v. Raich, 545 U.S. 1 (2005). In
this Circuit, there are four factors to consider when
determining if a statute regulates an activity that has
a substantial effect on interstate commerce:
(1) whether the statute regulates economic or
commercial activity; (2) whether the statute contains
an “express jurisdictional element” that limits the
reach of its provisions; (3) whether Congress made
findings regarding the regulated activity’s impact on
interstate commerce, and (4) whether the link between
the regulated activity and a substantial effect on
interstate commerce was attenuated. United States v.
Morales-de Jesus, 372 F.3d 6, 10 (1st Cir. (citing
Morrison U.S. 529 at 610-12). When Congress
legislates pursuant to a valid exercise of its Commerce
Clause authority, the Court scrutinizes the enactment
according to rational basis review. See United States v.
Lewko, 269 F.3d 64, 67 (1st Cir. 2001).
When considering the factors set forth by the
Supreme Court, and reiterated by the First Circuit, the
Court finds that Section 12616 does not exceed the

App. 41
Commerce Clause’s limits. First, it is unquestionable
that the amendments being challenged forbid a
quintessential economic activity. As Plaintiffs and
several amici parties admit, live-bird fights in the
Commonwealth are not only considered a commercial
activity but also an allegedly lucrative one.10 Second,
the extension of the animal fighting prohibition to the
Commonwealth of Puerto Rico and other territories
implies that the statutory definition of “animal fighting
prohibition venture” now applies fully to the territory.
The current definition states that this event must be
one “in or affecting interstate or foreign commerce.” 7
U.S.C. § 2156(g)(1). This wording meets the Supreme
Court’s concern, as expressed in López and Morrison,
as to whether the statute at hand has a nexus to
interstate commerce.
As to the third factor, provided that Section 12616
extends to the Commonwealth and the other territories
an existing prohibition, the Court reviews initially the
Congressional Committee findings dating back to the
original enactment of the animal fighting statute and
subsequently those on recent amendments. The Sixth
Circuit’s decision in Gilbert, supra, points out, these
fighting ventures: (1) “attract fighting animals and
spectators from numerous states”; (2) “are or have been
advertised in print media of nationwide circulation”,
and (3) “often involve gambling and other questionable
and criminal activities.” Gilbert, 677 F. 3d at 625
(citing H.R. Rep. No. 94-801, at 761 (1976)) (quotation
10

The Court addresses in a separate section the economic impact,
presented by Plaintiffs and amici parties, on the live-bird fighting
prohibition.

App. 42
marks omitted). Additionally, members of Congress
have also considered the connection between animal
fighting and avian diseases and the economic
consequences that would accompany a “bird flu”
pandemic. See 153 Cong. Rec. S451-52 (daily ed. Jan.
11, 2007) (Statement of Sen. Cantwell); 153 Cong. Rec.
E2 (daily ed. Jan. 5, 2007) (Statement of Rep. Gallegly).
On May 18, 2018, the House of Representative debated
the Section 12616 amendments currently being
challenged. The proponents, Rep. Peter Roskam (R-Ill.)
and Rep. Earl Blumenauer (D-Ore.), noted that Section
12616 sought to extend to the territories the legal
standard that already existed with respect to the fifty
States. 64 Cong. Rec. 80, H 4213, at H 4221 (daily ed.
May 18, 2018) (statement of Rep. Roskam). Moreover,
their intention was to close “a loophole” because
Congress “should have no separate rules for
States, territories, or anywhere under our
jurisdiction.” 164 Cong. Rec. 80, H 4213, at H 4222
(daily ed. May 18, 2018) (statement of Rep.
Blumenauer) (emphasis added).11
When analyzing these Congressional findings as
whole, the Court finds that they are sufficient to
support the assertion that live-bird fighting events
have a substantial effect on interstate commerce.
Therefore, the nexus between extending the live-bird
fighting prohibition to the Commonwealth and other

11

To date, nonetheless, there continues to exist federal legislation
which discriminates against the United States citizens residing in
the territories. See United States v.Vaello Madero, 356F. Supp.
3d208(D.P.R. 2019); Consejo de Salud Playa de Ponce v. Rullán,
586 F. Supp. 2d 22, 23 (D.P.R. 2008).

App. 43
territories is not attenuated. On the contrary, there
exists a direct connection between the means and the
end because live-bird fighting ventures are essentially
commercial endeavors that encompass a substantial
interstate activity as plainly defined by the statute.
The Court notes that lead Plaintiff Club Gallístico
described itself in the Amended Complaint as a
“tourism mecca” where “many fans and tourists . . .
yearly flock the territory to participate and/or enjoy the
sport;” which includes “visitors from all over the world.”
(Docket No. 21 ¶¶ 8-9). If taken as true, then the effect
on interstate commercial activity is undeniable.
As part of the rational basis analysis, the Court will
first entertain arguments concerning general aspects of
federalism put forward by Plaintiffs and several amici
parties. The fact that every State in the Nation has
already banned live-bird fights, does not hinder
Congress from reinforcing its illegality at the federal
level. The animal fighting prohibition has been the law
of the land since 1976, yet it created an exemption for
States, as defined by the AWA, that specifically
permitted live-bird fights in their jurisdictions. As
detailed in the introductory section, Congress has
progressively closed this legal gap between both
“sovereigns” and has now established a federal
threshold as to prohibitions on animal fighting
activities, particularly live-bird fights. At a state level,
every one of the Nation’s fifty states, and the District
of Columbia, can prosecute any person who unlawfully
engages in these events. This state prerogative does not
impede the federal government’s authority, under its
police power, to likewise prosecute these offenses at a
federal level. Under Section 12616, the United States

App. 44
can now prosecute people who participate in live-bird
fighting events even if that jurisdiction legally permits
that activity, pursuant to the “Conflict with State Law”
provision of the AWA, 7 U.S.C. § 2156(i)(1) (“The
provisions of this chapter shall not supersede or
otherwise invalidate any such State, local, or municipal
legislation or ordinance relating to animal fighting
ventures except in case of a direct and irreconcilable
conflict between any requirements thereunder and this
chapter or any rule, regulation, or standard
hereunder”). Following the elimination of the AWA’s
“Special Rule for Certain States” and sub-section(d)
provisions, there exists a “direct and irreconcilable
conflict” with all jurisdictions, like the Commonwealth
of Puerto Rico, that legally allow these activities. For
practical purposes, absent the exemptions and under
the “Conflict with State Law” provision, Congress has
superseded the Puerto Rico Gamecocks of the New
Millennium Act and any other Commonwealth
regulations involving live-bird fights. See U.S. CONST.
ART. VI; Brown v. United Airlines, Inc., 720 F.3d 60, 63
(1st Cir. 2013) (“A state law that offends the
Supremacy Clause is a nullity.”) (internal quotation
marks omitted). See also Hines v. Davidowitz, 312 U.S.
52, 67 (1941) (Even in the absence of a direct conflict,
a state law violates the Supremacy Clause when it
“stands as an obstacle to the accomplishment and
execution of the full purposes and objectives of
Congress.”)
The main rationale behind these amendments,
according to the Congressional record, was to equate
the legal standard applicable to the Nation’s fifty
States to all its territories, irrespective of other

App. 45
purported “moral” considerations articulated in House
of Representative’s session debate. For this reason, this
Court must defer to Congress’s findings on the matter
and determine that there exists a rational basis to
regulate live-bird fighting in the Commonwealth and
other territories because it affects interstate commerce
and the means of regulation, a comprehensive
prohibition of these fighting ventures is reasonably
adapted to that legislative end. See Heller v. Doe, 509
U.S. 312, 321 (1993) (“[C]ourts are compelled under
rational basis review to accept a legislature’s
generalizations even when there is an imperfect fit
between means and ends. A classification does not fail
rational basis review because it is not made with
mathematical nicety or because in practice it results in
some inequality.”)
b. The Territorial Clause
The Territorial Clause gives Congress authority to
“make all needful Rules and Regulations respecting the
Territory or other Property belonging to the United
States.” U.S. CONST. ART. IV, § 3, cl. 2. Congress’s
ultimate source of authority over the Commonwealth of
Puerto Rico only applies in this case insomuch it
decides whether and how a federal statute applies to
Puerto Rico. Antilles Cement Corp. v. Fortuño, 670
F.3d 310, 320 (1st Cir. 2012). In this aspect, “[a]ll
federal laws, criminal and civil in nature, apply to
Puerto Rico as they apply to the States, unless
otherwise provided.” Consejo de Salud Playa de Ponce,
586 F. Supp. 2d at 37 (emphasis added). The Section
12616 amendments were specifically enacted to extend
an already nationwide prohibition to the territories.

App. 46
c. Tenth Amendment and Bill of
Attainder
Plaintiffs posit that by enacting Section 12616,
Congress is requiring the Commonwealth “to enforce a
federal law” and dictating “what the Puerto Rico
legislature may and may not do, as it pertains to
cockfighting” in direct violation of the Tenth
Amendment and anti-commandeering doctrine. (Docket
No. 34 at 47-49). Defendants counter this position
advancing that the Tenth Amendment’s federalism
protections do not apply to the Commonwealth. (Docket
No. 38 at 21).
The Court agrees with Defendants. It is well settled
that “[the]he limits of the Tenth Amendment do not
apply to Puerto Rico, which is ‘constitutionally a
territory,’ because Puerto Rico’s powers are not ‘[those]
reserved to the States’ but those specifically granted to
it by Congress under its constitution.” Franklin
California Tax-Free Tr. v. Puerto Rico, 805 F.3d 322,
344-45 (1st Cir. 2015), aff’d, 136 S. Ct. 1938 (2016)
(quoting United States v. Lopez Andino, 831 F.2d 1164,
1172 (1st Cir. 1987) (Torruella, J., concurring)).
Likewise, as the Court previously articulated,
Congress, under both the Commerce Clause and
Supremacy Clause, has essentially preempted the law
and regulations that legalized live-bird fighting
ventures in the Commonwealth.
On the other hand, Plaintiffs argue that the Section
12616 amendments create “an unconstitutional bill of
attainder aimed and [at] preventing conduct that
Congress fears they might engage in . . . the violation
of laws of those states banning cockfighting and/or

App. 47
certain paraphernalia or specific activities.” (Docket
No. 34 at 51). Similarly, Plaintiff Club Gallístico avers
that these amendments “clearly singles out an easily
identifiable group of people” and punishes them for
engaging in a “cultural right.” Id.
For a statute to qualify as a bill of attainder it must:
(1) specify the affected person or group, (2) impose
punishment by legislative decree, and (3) dispense with
a judicial trial. Elgin v. U.S. Dep’t of Treasury, 641
F.3d 6, 19 (1st Cir. 2011). The Supreme Court “has
struck down statutes on bill of attainder grounds only
five times in the nation’s history.” Id. (emphasis added).
The Section 12616 amendments do not come even close
to meeting these requirements. As Defendants correctly
point out in their cross-motion, these amendments:
(1) “identif[y] particular proscribed conduct, which
would amount to a violation no matter who performed
it” and (2) “establish[] a general norm for conduct and
allows for violations of the act to be adjudicated by the
Judiciary, not the Legislature.” (Docket No. 38 at 22).
d. Puerto Rico Federal Relations Act
Plaintiff Club Gallístico and other amicis argue that
Section 12616 is “locally inapplicable” under the Puerto
Rico Federal Relations Act, 48 U.S.C. § 734. The test
for examining whether a law can be “locally
inapplicable” to the Commonwealth is well-established
under First Circuit’s precedent. The inquiry as to
whether a statute applies to the Commonwealth of
Puerto Rico entails “matters of congressional intent.”
United States v. Acosta-Martínez, 252 F.3d 13, 18 (1st
Cir. 2001) (citing People of Puerto Rico v. Shell Co., 302
U.S. 253, 258 (1937)). “If Congress has made clear its

App. 48
intent that a federal statute apply to Puerto Rico, then
the issue of whether a law is otherwise ‘locally
inapplicable’ does not, by definition, arise.” Id.
It is unquestionable that Section 12616 applies to
the Commonwealth. As Defendants point out the title
for the amendments explicitly reads: “Extending
prohibition on animal fighting to the territories” and
the legislative history shows Congress’s undeniable
intention to extend the animal fighting venture
prohibition to the Commonwealth. (Docket No. 38 at
22).
C. Plaintiffs’ Constitutional rights
claims
Plaintiffs argue that Section 12616 violates several
rights under the Constitution of the United States. At
the outset, Plaintiffs posit that cockfighting should be
classified as a fundamental “cultural right” pursuant to
the United Nations’ Universal Declaration of Human
Rights and the Puerto Rico Gamecocks of the New
Millennium Act. (Docket No. 34 at 8). No such right
exists in our Federal Constitution and the Supreme
Court has consistently rejected any expansion to the
Bill of Rights. See Washington v. Glucksberg, 521 U.S.
702, 720 (1997).12 Plaintiff Club Gallístico aims to
12

Even a wide-ranging analysis of the Ninth Amendment, U.S.
amend. IX, does not seem to contemplate this sort of
“cultural rights.” Id. (“The enumeration in the Constitution, of
certain rights, shall not be construed to deny or disparage others
retained by the people.”). Justice Robert Jackson once stated,
“Ninth Amendment rights . . . are still a mystery to me.” Robert H.
Jackson, The Supreme Court in The American System of
Government 74-75 (1955).
CONST.

App. 49
establish a “cultural right” by drawing parallels to
other fundamental rights, such as freedom of speech
and association, free exercise of religion, substantive
and procedural due process, equal protection, and right
to travel, among others, attempting to trigger a strict
or heightened scrutiny analysis. The Court applauds
Plaintiffs’ legal creativity, however rejects said
argument. The AWA, and the Section 12616
amendments, can only be construed as socioeconomic
legislation and, as previously discussed, satisfy a
rational basis scrutiny. Nonetheless, the Court will
address Plaintiffs’ constitutional rights claims seriatim.
a. First Amendment
Plaintiffs’ First Amendment claim is two-fold. First,
they allege that the live-bird prohibition “facially
targets conduct,” unduly burdening their right to
speech and that said prohibition does not survive a
judicial challenge under the test for symbolic protected
expression enunciated in United States v. O’Brien, 391
U.S. 367 (1968). (Docket No. 34 at 22-23). Furthermore,
Plaintiff Club Gallístico contends that these
amendments violate their right to free association
because Plaintiffs are entitled to “perpetuate their
culture through assembly and cockfighting.” (Docket
No. 34 at 21-22). Defendant United States opposes
these arguments asserting that Section 12616 has not
“curtailed Plaintiffs’ ability to speak or associate in
favor of cockfighting and its importance to Puerto
Rican culture” and that pursuant to United States v.
Stevens, 559 U.S. 460 (2010), the depiction of animal
cruelty may be considered protected expression, but not

App. 50
the conduct itself. Alternatively, Defendants point out
that the amendments comply with the O’Brien test.
The Court agrees with Defendants. A live-bird
fighting venture does not fall within any expressive or
non-expressive protected conduct. Even if it falls under
a protected category, “[t]he government has a freer
hand in restricting expressive conduct than it has in
restricting the written or spoken word.” Texas v.
Johnson, 491 U.S. 397, 406 (1989). On this issue, the
Supreme Court has constantly rejected the “view that
an apparently limitless variety of conduct can be
labeled ‘speech’ whenever the person engaging in the
conduct intends thereby to express an idea.” O’Brien,
391 U.S. at 376; see also Wisconsin v. Mitchell, 508
U.S. 476, 484 (1993). It is undisputed that the AWA’s
statement of policy, and legislative aim over the
decades, includes a rejection of animal violence. 7
U.S.C. § 2131 (“The Congress further finds that it is
essential to regulate the . . . care, handling, and
treatment of animals . . . by persons or organizations
engaged in using them . . . for exhibition purposes . . .
or for any such purpose or use.”) In this aspect,
“expressive activities that produce special harms
distinct from their communicative impact” are not
entitled to constitutional protection. Roberts v. United
States Jaycees, 468 U.S. 609, 628 (1984). Moreover, the
Court agrees with Defendants’ reading of Stevens,
which establishes a distinction between an artistic
expression, such as depicting a wounded or dead
animal, from a non-artistic conduct, i.e. participating in
animal fights that may lead to injury or death of
participating animals.

App. 51
As for the right to association claim, the Section
12616 amendments, will not prohibit Plaintiffs from
assembling to discuss and express their views
regarding cockfighting and other cultural issues.
Nevertheless, the First Amendment does not protect
assembly for unlawful purposes or to engage in a
criminal activity. See De Jonge v. Oregon, 299 U.S.
353, 364-65 (1937); see also Scales v. United States,
367 U.S. 203, 229-30 (1961). Additionally, in support of
these claims, Plaintiffs fleetingly mention in their
Motion for Summary Judgment the Supreme Court’s
decision in Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520 (1993) in which a Florida
city ordinance that prohibited ritual animal sacrifices
was struck down. There is no doubt that partaking in
live-bird fighting ventures does not violate the Free
Exercise Clause, nor can it be classified as a protected
religious belief.13
b. Substantive and Procedural Due
Process
Plaintiffs claim that Congress violated their
procedural Due Process rights because “Puerto Rico has
no real political representation” in the federal
legislative branch and consequently had no opportunity
to participate in Section 12616’s enactment. (Docket
No. 34 at 42-43). Moreover, they argue that Congress
deprived them of a meaningful opportunity to be heard.
Id.

13

It is worth noting that Plaintiffs seemed to have abandoned this
argument when opposing Defendants’ cross-motion for summary
judgment.

App. 52
The Court finds this argument to be unfounded.
Plaintiff Club Gallístico does not have a cognizable
liberty or property interest deprived by the enactment
of the Section 12616 amendments. Even if Plaintiffs
had a valid property interest, “the legislative process
itself provides citizens with all of the process they are
due.” Correa-Ruiz v. Fortuño, 573 F.3d 1, 15 (1st Cir.
2009) (citations omitted) (quotation marks omitted).
The Commonwealth of Puerto Rico might not have a
voting member in Congress, but its Resident
Commissioner participated in the House of
Representatives legislative session debating this issue
and strongly voiced her opposition. See 164 Cong. Rec.
80, H 4213, at H 4222 (daily ed. May 18, 2018)
(statement of Rep. González-Colón). The fact that
Plaintiffs were unable to effectively lobby against the
approval Section 12616 cannot be remedied by a court
of law as it involves a political task delegated to the
political branches of government. In this respect, the
Court reminds Plaintiffs that “[t]he entire structure of
our democratic government rests on the premise that
the individual citizen is capable of informing himself
about the particular policies that affect his destiny.”
Atkins v. Parker, 472 U.S. 115, 131 (1985) (emphasis
added). More so, despite the undemocratic predicament
existing in the Commonwealth of Puerto Rico, the utter
lack of consent of the governed per se does not violate
the Constitution. See Pedro-Vidal, 371 F. Supp. 3d at
59.
On the other hand, Plaintiff Club Gallístico also
avers that Section 12616 amendments infringe their
substantive Due Process cultural right to
“cockfighting.” (Docket No. 38; 53). As the court already

App. 53
pointed out, such right does exist under our
constitutional framework and where there “is no
fundamental right or suspect classification involved” a
rational basis test shall be applied. Hammond v.
United States, 786 F.2d 8, 13 (1st Cir. 1986). Once
again, Section 12616 complies with the requirements
for this easily-met judicial scrutiny. The Court notes
that Plaintiffs presented an “equal protection” claim
pursuant to the Due Process Clause, yet barely develop
it in their motions and reply. As discussed at the
beginning of this Opinion and Order, this action, if
anything, illustrates an equal treatment before the
law, rather than an unequal one.
c. Right to Travel
Plaintiff Club Gallístico contend that under Section
12616 its members will not be able to travel freely
within the United States “to practice and perpetuate
their culture” (Docket No. 34 at 56). Although the
Constitution protects a right to travel interstate and
abroad, it is not an absolute constitutional guarantee.
This right does not entail a fundamental right to travel
for an illicit purpose. See Hoke v. United States, 227
U.S. 308, 320-323 (1913). See also Jones v. Helms, 452
U.S. 412, 418-19 (1981). Following the approval of
these amendments, any travel involving live-birds, or
sharp instruments intended for fighting, shall
constitute an unlawful act, outside of any
constitutionally protected activity.
D. Takings Clause
Finally, Plaintiffs put forward that the prohibition
takes their “real and personal property without just

App. 54
compensation” and that they are “no longer able to
maintain, support, or sell their gamecocks because
these breeds are considered by the market to be useless
for any non-cockfighting purpose.” (Docket 34 at 57).
Moreover, Plaintiffs argue that their cockpits “are no
longer able to be maintained, supported, or sold at
their true value as these properties exist and are
regulated for the specific purpose of cockfighting.” Id.
at 58. As to this specific allegation, Plaintiff Club
Gallístico adds objection to Defendants’ cross-motion
that they “should have been on notice that this
prohibition was coming and that their investments
carried some risks.” (Docket 57 at 34).
To analyze this contention, the Court need only
assess whether the Section 12616 amendments
constitute reasonable exercise of Congress’ police power
even if they substantially have the effect of reducing
the value of certain property or prohibiting the most
beneficially economic use of said property. See Philip
Morris, Inc. v. Reilly, 312 F.3d 24, 33 (1st Cir. 2002);
Andrus v. Allard, 444 U.S. 51 (1979). In Andrus, the
Supreme Court considered the Eagle Protection Act
and the Migratory Bird Treaty Act which, among other
things, made it unlawful to possess or transport bald or
golden eagles or to engage in such activities with
respect to migratory birds. As a general norm, the
Supreme Court reiterated that “[t]he Takings
Clause . . . preserves governmental power to regulate,
subject only to the dictates of justice and fairness.” Id.
at 65 (quotation marks omitted). Under this premise it
held that the simple prohibition of the sale of lawfully
acquired property did not amount to a Fifth
Amendment’s taking violation. Like the Supreme

App. 55
Court’s reasoning in Andrus, in the present case,
Section 12616 does not violate the Takings Clause.
Even if these recent amendments prevent the most
profitable use of Plaintiffs’ properties because their
value is reduced, this does not necessarily equate to a
taking.
As to Plaintiff Club Gallístico’s “investment-backed
expectation” argument, this Court highlights that:
“Those who do business in the regulated field cannot
object if the legislative scheme is buttressed by
subsequent amendments to achieve the legislative
end.” Connolly v. Pension Ben. Guar. Corp., 475 U.S.
211, 227 (1986); see also Puerto Rico Tel. Co. v.
Telecommunications Regulatory Bd. of Puerto Rico, 189
F.3d 1, 17 (1st Cir. 1999). As Plaintiffs themselves
affirm, live-bird fighting venture have been a highly
regulated industry in the Commonwealth. (Docket No.
34 at 12).
E. Economic Impact
The Court considers necessary to address a central
position to Plaintiffs and several amici briefs, notably
that of the Commonwealth’s Senate: the alleged
economic impact that the live-bird fighting prohibition
could have in the Commonwealth’s already precarious
economy. The cockfighting industry injects $65 million
annually into the Commonwealth’s economy and
generates a total of 11,134 direct, indirect and induced

App. 56
jobs. See Plaintiffs’ Economic Impact Study of the
Cockfighting Report (March 2019) (Docket No. 2-4).14
The Court clearly understands the dire economic
impact that the cockfighting ban may have. However,
without a valid legal ground, a federal court simply
cannot sit as a “super-legislator” to amend or repeal the
work of Congress. See City of New Orleans v. Dukes,
427 U.S. 297, 303, (1976) (“[T]he judiciary may not sit
as a superlegislature to judge the wisdom or
desirability of legislative policy determinations made
in areas that neither affect fundamental rights nor
proceed along suspect lines.”) As discussed throughout
this Opinion and Order, the Section 12616
amendments meet the rational basis standard; a
judicial scrutiny which “is not a license for courts to
judge the wisdom, fairness or logic of legislative
choices.” Heller, 509 U.S. at 319.
F. Conclusion
The Court hereby DENIES Plaintiffs Club
Gallístico and others’ Motion for Summary Judgment
(Docket No. 34) and GRANTS the United Sates’
Cross-Motion for Summary Judgment. (Docket No. 38).
The Court further holds that it will not grant any stay
pending the parties’ appeals before the First Circuit.
Judgment shall be entered accordingly.
SO ORDERED.

14

Similarly, according to the Senate, the cockfighting industry
“has an impact of about eighteen (18) million dollars on the local
economy and creates over twenty thousand (20,000) direct and
indirect jobs.” (Docket No. 60 at 6).

App. 57
In San Juan, Puerto Rico this 28th of October, 2019.
s/ Gustavo A. Gelpí
GUSTAVO A. GELPI
United States District Judge

App. 58

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
CIVIL NO. 19-1481 (GAG); (consolidated with
Civil No. 19-1739 (GAG))
[Filed October 29, 2019]
__________________________________________
CLUB GALLISTICO DE PUERTO RICO )
INC. et al.,
)
)
Plaintiffs,
)
)
v.
)
)
UNITED STATES OF AMERICA et al., )
)
Defendants.
)
__________________________________________)
JUDGMENT
Pursuant to the Court’s Opinion and Order at
Docket No. 77, judgment is hereby entered
DISMISSING the instant action in favor of Defendant
United States and others.
SO ORDERED.

App. 59
In San Juan, Puerto Rico this 28th of October, 2019.
s/ Gustavo A. Gelpí
GUSTAVO A. GELPI
United States District Judge

App. 60

APPENDIX D
7 U.S.C.A. § 2156
§ 2156. Animal fighting venture prohibition
Effective: February 7, 2014 to December 19,
2019
(a)
Sponsoring or exhibiting an animal in,
attending, or causing an individual who has not
attained the age of 16 to attend, an animal
fighting venture
(1)

Sponsoring or exhibiting

Except as provided in paragraph (3), it shall be
unlawful for any person to knowingly sponsor or
exhibit an animal in an animal fighting venture.
(2)
Attending or causing an individual
who has not attained the age of 16 to
attend
It shall be unlawful for any person to-(A)
knowingly attend an animal fighting
venture; or
(B)
knowingly cause an individual who
has not attained the age of 16 to attend an
animal fighting venture.

App. 61
(3)

Special rule for certain State1

With respect to fighting ventures involving live birds in
a State where it would not be in violation of the law, it
shall be unlawful under this subsection for a person to
sponsor or exhibit a bird in the fighting venture only if
the person knew that any bird in the fighting venture
was knowingly bought, sold, delivered, transported, or
received in interstate or foreign commerce for the
purpose of participation in the fighting venture.
(b)
Buying, selling, delivering, possessing,
training, or transporting animals for
participation in animal fighting venture
It shall be unlawful for any person to knowingly sell,
buy, possess, train, transport, deliver, or receive any
animal for purposes of having the animal participate in
an animal fighting venture.
(c)
Use of Postal Service or other interstate
instrumentality for promoting or furthering
animal fighting venture
It shall be unlawful for any person to knowingly use
the mail service of the United States Postal Service or
any instrumentality of interstate commerce for
commercial speech for purposes of advertising an
animal, or an instrument described in subsection (e),
for use in an animal fighting venture, promoting2 or in
any other manner furthering an animal fighting

1

So in original. Probably should be “States”.

2

So in original. Probably should be preceded by “or”.

App. 62
venture except as performed outside the limits of the
States of the United States.
(d)

Violation of State law

Notwithstanding the provisions of subsection (c), the
activities prohibited by such subsection shall be
unlawful with respect to fighting ventures involving
live birds only if the fight is to take place in a State
where it would be in violation of the laws thereof.
(e)
Buying, selling, delivering, or transporting
sharp instruments for use in animal fighting
venture
It shall be unlawful for any person to knowingly sell,
buy, transport, or deliver in interstate or foreign
commerce a knife, a gaff, or any other sharp
instrument attached, or designed or intended to be
attached, to the leg of a bird for use in an animal
fighting venture.
(f)
Investigation of violations by Secretary;
assistance by other Federal agencies; issuance of
search warrant; forfeiture; costs recoverable in
forfeiture or civil action
The Secretary or any other person authorized by him
shall make such investigations as the Secretary deems
necessary to determine whether any person has
violated or is violating any provision of this section,
and the Secretary may obtain the assistance of the
Federal Bureau of Investigation, the Department of the
Treasury, or other law enforcement agencies of the
United States, and State and local governmental
agencies, in the conduct of such investigations, under

App. 63
cooperative agreements with such agencies. A warrant
to search for and seize any animal which there is
probable cause to believe was involved in any violation
of this section may be issued by any judge of the United
States or of a State court of record or by a United
States magistrate judge within the district wherein the
animal sought is located. Any United States marshal or
any person authorized under this section to conduct
investigations may apply for and execute any such
warrant, and any animal seized under such a warrant
shall be held by the United States marshal or other
authorized person pending disposition thereof by the
court in accordance with this subsection. Necessary
care including veterinary treatment shall be provided
while the animals are so held in custody. Any animal
involved in any violation of this section shall be liable
to be proceeded against and forfeited to the United
States at any time on complaint filed in any United
States district court or other court of the United States
for any jurisdiction in which the animal is found and
upon a judgment of forfeiture shall be disposed of by
sale for lawful purposes or by other humane means, as
the court may direct. Costs incurred for care of animals
seized and forfeited under this section shall be
recoverable from the owner of the animals (1) if he
appears in such forfeiture proceeding, or (2) in a
separate civil action brought in the jurisdiction in
which the owner is found, resides, or transacts
business.
(g)

Definitions

In this section--

App. 64
(1)
the term “animal fighting venture” means
any event, in or affecting interstate or foreign
commerce, that involves a fight conducted or to
be conducted between at least 2 animals for
purposes of sport, wagering, or entertainment,
except that the term “animal fighting venture”
shall not be deemed to include any activity the
primary purpose of which involves the use of one
or more animals in hunting another animal;
(2)
the term “instrumentality of interstate
commerce” means any written, wire, radio,
television or other form of communication in, or
using a facility of, interstate commerce;
(3)
the term “State” means any State of the
United States, the District of Columbia, the
Commonwealth of Puerto Rico, and any territory
or possession of the United States;3
(4)
the term “animal” means any live bird, or
any live mammal, except man.
(h)

Relationship to other provisions

The conduct by any person of any activity prohibited by
this section shall not render such person subject to the
other sections of this chapter as a dealer, exhibitor, or
otherwise.

3

So in original. The word “and” probably should appear.

App. 65
(i)

Conflict with State law
(1)

In general

The provisions of this chapter shall not supersede or
otherwise invalidate any such State, local, or municipal
legislation or ordinance relating to animal fighting
ventures except in case of a direct and irreconcilable
conflict between any requirements thereunder and this
chapter or any rule, regulation, or standard hereunder.
(2)
(j)

Omitted

Criminal penalties

The criminal penalties for violations of subsection (a),
(b), (c), or (e) are provided in section 49 of Title 18.

App. 66

APPENDIX E
7 U.S.C.A. § 2156
§ 2156. Animal fighting venture prohibition
Effective: December 20, 2019
(a)
Sponsoring or exhibiting an animal in,
attending, or causing an individual who has not
attained the age of 16 to attend, an animal
fighting venture
(1)

Sponsoring or exhibiting

It shall be unlawful for any person to knowingly
sponsor or exhibit an animal in an animal
fighting venture.
(2)
Attending or causing an individual
who has not attained the age of 16 to
attend
It shall be unlawful for any person to-(A)
knowingly attend
fighting venture; or

an

animal

(B)
knowingly cause an individual who
has not attained the age of 16 to attend
an animal fighting venture.

App. 67
(b)
Buying, selling, delivering, possessing,
training, or transporting animals for
participation in animal fighting venture
It shall be unlawful for any person to knowingly sell,
buy, possess, train, transport, deliver, or receive any
animal for purposes of having the animal participate in
an animal fighting venture.
(c)
Use of Postal Service or other interstate
instrumentality for promoting or furthering
animal fighting venture
It shall be unlawful for any person to knowingly use
the mail service of the United States Postal Service or
any instrumentality of interstate commerce for
commercial speech for purposes of advertising an
animal, or an instrument described in subsection (d),
for use in an animal fighting venture, promoting1 or in
any other manner furthering an animal fighting
venture except as performed outside the limits of the
States of the United States.
(d)
Buying, selling, delivering, or transporting
sharp instruments for use in animal fighting
venture
It shall be unlawful for any person to knowingly sell,
buy, transport, or deliver in interstate or foreign
commerce a knife, a gaff, or any other sharp
instrument attached, or designed or intended to be
attached, to the leg of a bird for use in an animal
fighting venture.

1

So in original. Probably should be preceded by “or”.

App. 68
(e)
Investigation of violations by Secretary;
assistance by other Federal agencies; issuance of
search warrant; forfeiture; costs recoverable in
forfeiture or civil action
The Secretary or any other person authorized by him
shall make such investigations as the Secretary deems
necessary to determine whether any person has
violated or is violating any provision of this section,
and the Secretary may obtain the assistance of the
Federal Bureau of Investigation, the Department of the
Treasury, or other law enforcement agencies of the
United States, and State and local governmental
agencies, in the conduct of such investigations, under
cooperative agreements with such agencies. A warrant
to search for and seize any animal which there is
probable cause to believe was involved in any violation
of this section may be issued by any judge of the United
States or of a State court of record or by a United
States magistrate judge within the district wherein the
animal sought is located. Any United States marshal or
any person authorized under this section to conduct
investigations may apply for and execute any such
warrant, and any animal seized under such a warrant
shall be held by the United States marshal or other
authorized person pending disposition thereof by the
court in accordance with this subsection. Necessary
care including veterinary treatment shall be provided
while the animals are so held in custody. Any animal
involved in any violation of this section shall be liable
to be proceeded against and forfeited to the United
States at any time on complaint filed in any United
States district court or other court of the United States
for any jurisdiction in which the animal is found and

App. 69
upon a judgment of forfeiture shall be disposed of by
sale for lawful purposes or by other humane means, as
the court may direct. Costs incurred for care of animals
seized and forfeited under this section shall be
recoverable from the owner of the animals (1) if he
appears in such forfeiture proceeding, or (2) in a
separate civil action brought in the jurisdiction in
which the owner is found, resides, or transacts
business.
(f)

Definitions

In this section-(1)
the term “animal fighting venture” means
any event, in or affecting interstate or foreign
commerce, that involves a fight conducted or to
be conducted between at least 2 animals for
purposes of sport, wagering, or entertainment,
except that the term “animal fighting venture”
shall not be deemed to include any activity the
primary purpose of which involves the use of one
or more animals in hunting another animal;
(2)
the term “instrumentality of interstate
commerce” means any written, wire, radio,
television or other form of communication in, or
using a facility of, interstate commerce;
(3)
the term “State” means any State of the
United States, the District of Columbia, the
Commonwealth of Puerto Rico, and any territory
or possession of the United States;2

2

So in original. The word “and” probably should appear.

App. 70
(4)
the term “animal” means any live bird, or
any live mammal, except man.
(g)

Relationship to other provisions

The conduct by any person of any activity prohibited by
this section shall not render such person subject to the
other sections of this chapter as a dealer, exhibitor, or
otherwise.
(h)

Conflict with State law
(1)

In general

The provisions of this chapter shall not supersede or
otherwise invalidate any such State, local, or municipal
legislation or ordinance relating to animal fighting
ventures except in case of a direct and irreconcilable
conflict between any requirements thereunder and this
chapter or any rule, regulation, or standard hereunder.
(2)
(i)

Omitted

Criminal penalties

The criminal penalties for violations of subsection (a),
(b), (c), or (d) are provided in section 49 of Title 18.

App. 71

APPENDIX F
AGRICULTURE IMPROVEMENT ACT OF 2018,
PL 115-334, December 20, 2018
SEC. 12616 EXTENDING PROHIBITION ON
ANIMAL FIGHTING TO THE TERRITORIES.
(a) IN GENERAL.—Section 26 of the Animal Welfare
Act (7 U.S.C. 2156) is amended—
(1) in subsection (a)—
<< 7 USCA § 2156 >>
(A) in paragraph (1), by striking “Except as provided in
paragraph (3), it” and inserting “It”; and
<< 7 USCA § 2156 >>
(B) by striking paragraph (3);
<< 7 USCA § 2156 >>
(2) by striking subsection (d); and
<< 7 USCA § 2156 >>
<< 39 USCA § 3001 >>
(3) by redesignating subsections (e), (f), (g), (h), (i), and
(j) as subsections (d), (e), (f), (g), (h), and (i),
respectively.

App. 72
<< 7 USCA § 2156 >>
(b) USE OF POSTAL SERVICE OR OTHER
INTERSTATE INSTRUMENTALITIES.—Section 26(c)
of the Animal Welfare Act (7 U.S.C. 2156(c)) is
amended by striking “(e)” and inserting “(d)”.
<< 7 USCA § 2156 >>
(c) CRIMINAL PENALTIES.—Subsection (i) of section
26 of the Animal Welfare Act (7 U.S.C. 2156), as
redesignated by section 2(3), is amended by striking
“(e)” and inserting “(d)”.
<< 18 USCA § 49 >>
(d) ENFORCEMENT OF ANIMAL FIGHTING
PROHIBITIONS.—Section 49(a) of title 18, United
States Code, is amended by striking “(e)” and inserting
“(d)”.
<< 7 USCA § 2156 NOTE >>
(e) EFFECTIVE DATE.—The amendments made by
this section shall take effect on the date that is one
year after the date of the enactment of this Act.

